    April 28, 2006




Financial Management

Report on Allegations to the Defense
Hotline Concerning Funds “Parked”
at the U.S. Special Operations
Command
(D2006-082)




                  Department of Defense
                 Office of Inspector General

                                   Constitution of
                                  the United States

     A Regular Statement of Account of the Receipts and Expenditures of all public
     Money shall be published from time to time.
                                                             Article I, Section 9
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at http://www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit, Audit Followup and Technical
  Support at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                   ODIG-AUD (ATTN: AFTS Audit Suggestions)
                   Inspector General of the Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
DCIS                  Defense Criminal Investigative Service
FAD                   Funding Authorization Document
FMR                   Financial Management Regulation
OMB                   Office of Management and Budget
USD(C)/CFO            Under Secretary of Defense (Comptroller)/Chief Financial Officer
RDT&E                 Research, Development, Test, and Evaluation
SOCOM                 U.S. Special Operations Command
                           INSPECTOR GENERAL
                           DEPARTMENT OF DEFENSE
                             400 ARMY NAVY DRIVE
                        ARLINGTON, VIRGINIA 22202-4704




                                                                          April 28,2006
MEMORANDUM FOR UNDER SECRETARY OF DEFENSE
                 (COMPTR0LLER)lCHIEF FINANCIAL OFFICER
               COMMANDER, U.S. SPECIAL OPERATIONS COMMAND
SUBJECT: Report on Allegations to the Defense Hotline Concerning Funds "Parked"
         at the U.S. Special Operations Command (Report No. D-2006-082)

        We are providing this report for your information and use. No written response to
this report was required and none was received. Therefore, we are publishing this report
in final form.
       We appreciate the courtesies extended to the staff. Questions should be directed
to Ms. Barbara A. Sauls at (703) 325-5782 (DSN 221-5782) or Mr. C. Kirk Winstead at
(703) 325-3549 (DSN 221-3549). See Appendix D for the report distribution. The team
members are listed inside the back cover.
                              By direction of the Deputy Inspector General for Auditing:



                                        p a u p , CPA
                                      Assist t Inspector General
                                      Defense Financial Auditing
                                               Service
               Department of Defense Office of Inspector General
Report No. D-2006-082                                                     April 28, 2006
  (Project No. D2006-D000FH-0034.000)

           Allegations to the Defense Hotline Concerning Funds
            “Parked” at the U.S. Special Operations Command

                                Executive Summary

Who Should Read This Report and Why? Office of the Under Secretary of Defense
(Comptroller)/Chief Financial Officer and U.S. Special Operations Command
Comptroller Division civil service and uniformed officers responsible for developing,
implementing, and executing program and budgetary procedures associated with project
funding at the Special Operations Command at MacDill Air Force Base in Tampa,
Florida, should read this report. The report discusses our audit of allegations to the
Defense Hotline concerning funding irregularities at the U.S. Special Operations
Command, MacDill Air Force Base, and the Office of the Under Secretary of Defense
(Comptroller)/Chief Financial Officer.

Background. The audit was conducted in response to allegations to the Defense Hotline
regarding funding irregularities at the U.S. Special Operations Command Comptroller
Division, MacDill Air Force Base in Tampa, Florida, and the Office of the Under
Secretary of Defense (Comptroller)/Chief Financial Officer. The Hotline allegations
related to the improper use of authority exercised during the execution of the FY 2003
budget and the violation of laws and regulations in the use of appropriated Research,
Development, Test, and Evaluation funds for acquisition programs managed by the U.S.
Special Operations Command.

Results. The programming, budgeting, and execution procedures for Research,
Development, Test, and Evaluation funds included in the FY 2003 U.S. Special
Operations Command budget were accomplished in compliance with the laws and
regulations of the United States and with the policies of the Office of Management and
Budget and the Department of Defense. We found no improprieties, fraud or lying, or
conspiracy to commit fraud or lying to the United States Government during the FY 2003
programming and budgeting processes. We found no misuse of FY 2003 appropriated
funds. Accordingly, we make no recommendations in this report.

Management Comments. We provided a draft of this report on April 6, 2006. No
written response to this report was required, and none was received. Therefore, we are
publishing this report in final form.
Table of Contents

Executive Summary                               i

Background                                     1

Objectives                                     2

Managers’ Internal Control Program             2

Finding
     Fiscal Year 2003 Budget Allegations       4

Appendixes
     A.   Scope and Methodology                 8
     B.   Summary of Allegations and Results    9
     C.   Budget Formulation Process           11
     D.   Report Distribution                  13
Background
           We conducted this audit in response to allegations to the Defense Hotline
           regarding funding irregularities at the U.S. Special Operations Command
           (SOCOM) Comptroller Division and also the Office of the Under Secretary of
           Defense (Comptroller)/Chief Financial Officer (USD[C]/CFO). The Hotline
           allegations related to the falsification of official budget data submitted to
           Government officials, improper use of authority exercised during the execution of
           the FY 2003 budget, and the violation of laws and regulations in the use of
           appropriated Research, Development, Test, and Evaluation (RDT&E) funds for
           acquisition programs managed by SOCOM. We reviewed transactions associated
           with RDT&E funds to determine whether the allegations were substantiated.

           U.S. Special Operations Command. SOCOM was formally established as a
           unified combatant command at MacDill Air Force Base, in Tampa, Florida, on
           April 16, 1987. SOCOM is the unified command for the worldwide use of the
           Special Operations elements of the United States Army, Navy, and Air Force.
           The mission of SOCOM includes special reconnaissance, unconventional warfare,
           and direct action missions.

           Annual Budget Process. Office of Management and Budget (OMB) Circular
           No. A-11, “Preparation, Submission and Execution of the Budget,” provides
           detailed guidance on developing the budget of the United States Government set
           forth by the President, with financial proposals and recommended priorities for
           allocating resources. 1 The budget contains the President’s budget message and
           other broad statements of policy. The budget process occurs in three main phases
           as described in the following.

               •    Formulation. OMB starts the process by sending planning guidance
                    (OMB Circular No. A-11) to the Executive Branch agencies in the spring
                    of each year. The President completes this phase by sending the budget to
                    Congress, normally on the first Monday in February of the following year.
                    (See Appendix C for details on the budget formulation process.)
               •    Congressional. Congress considers the budget proposals, passes an
                    overall revenue and spending plan called a “budget resolution,” and enacts
                    appropriations acts and other laws that control spending and receipts.

               •    Execution. This phase lasts for 1 fiscal year. OMB apportions funds and
                    specifies the amount of funds that an agency may use by time period,
                    program, project, or activity throughout the year.

           During the budget formulation phase, the agencies prepare the congressional
           budget justification and back up materials that go into the Budget Estimate

1
    OMB Circular No. A-11, section 10.4, provides that the budget covers the agencies of all three branches
    of Government–Executive, Legislative, and Judicial–and provides information on Government-sponsored
    enterprises. In accordance with the law or established practice, OMB includes information on agencies of
    the Legislative Branch, the Judicial Branch, and certain Executive Branch agencies as submitted by those
    agencies.



                                                      1
    Submission. OMB reviews these budget justification materials. In DoD, each
    budget estimate is based on the programs and fiscal guidance contained in the
    Program Objectives Memorandum. For DoD activities, the most critical element
    of the budget review is the comprehensive analysis of their budget submissions by
    the USD(C)/CFO to determine whether programs are appropriately priced and
    executable as proposed, to ensure all programs and budget estimates can be
    justified to Congress, and to ensure budget submissions are funded consistently
    within legal limitations and in accordance with financial policy guidance.

    Research, Development, Test, and Evaluation Funds. RDT&E funds have a
    2-year budget authority to finance research, development, test, and evaluation
    efforts performed by contractors and government installations, including
    procurement of end items such as weapons, equipment, components, materials,
    and services required for development of equipment, material, or computer
    application software. The SOCOM portion of the DoD-wide RDT&E budget for
    FY 2003 was $431 million.


Objectives
    Our overall audit objective was to review the allegations to the Defense Hotline
    concerning funding irregularities at the SOCOM involving the USD(C/CFO).
    Specifically, we reviewed Hotline allegations to determine whether:

       •   USD(C)/CFO and SOCOM personnel falsified or requested the
           falsification of official budget data that are submitted to government
           officials,

       •   USD(C)/CFO and SOCOM personnel caused appropriated funds to be
           improperly diverted for a purpose not authorized by Congress, and

       •   there were any indications that subsequent specific appropriation
           transactions were not legal or not authorized at appropriate levels.
    See Appendix A for a discussion of the audit scope, scope limitations, and
    methodology. See Appendix B for the specific issues raised by the Defense
    Hotline allegations and a summary of our conclusions.


Managers’ Internal Control Program
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.




                                         2
Scope of the Review of the Management Control Program. This report is
provided in response to allegations made to the Defense Hotline. The scope of
the report is limited to those specific allegations. Accordingly, a review of the
managers’ internal control program was not performed and was outside the scope
of this audit.




                                    3
                    Fiscal Year 2003 Budget Allegations
                    USD(C)/CFO and SOCOM personnel responsible for programming,
                    budgeting, and executing the FY 2003 RDT&E funds appropriated to
                    SOCOM in FY 2003 did not:

                         •    falsify official budget data submitted to government officials,
                         •    cause appropriated funds to be improperly diverted for a purpose
                              not authorized by Congress, or
                         •    engage in subsequent transactions of appropriated funds that were
                              not legal or authorized at appropriate levels.

                    The programming, budgeting, and execution procedures were
                    accomplished in compliance with the laws and regulations of the United
                    States and with the policies of the OMB and the DoD. As a result, our
                    audit did not identify any improprieties, fraud or lying, or conspiracy to
                    commit fraud or lying to the United States Government during the
                    FY 2003 programming and budgeting process.


Request to “Park” Funds
           The DoD Hotline received a report of allegations of funding irregularities
           involving U.S. Special Operations Command/Comptroller Division personnel at
           MacDill Air Force Base and the Office of the USD(C)/CFO during the FY 2003
           budgeting process. The complainant provided a copy of an e-mail sent by the
           SOCOM Comptroller to SOCOM staffers. The e-mail referred to a request from
           the Office of the USD(C)/CFO that SOCOM “park” 2 funds in the amount of
           $40 million just prior to “locking the database.” 3 According to the former
           Director of the Investment Directorate, the need to “park” funds stemmed from an
           increase in the amount of budget authority from OMB late in the budget process.
           Ultimately, SOCOM Comptroller personnel agreed to “park” $20 million in six
           RDT&E programs. (The Office of the USD(C)/CFO sent the remaining
           $20 million to the Defense Information Systems Agency as procurement funds.)




2
    In an interview with the Defense Criminal Investigative Service (DCIS), the former Director of the
     Investment Directorate at the USD(C)/CFO acknowledged having used the “parking” terminology to
     describe the placement of money. He stated that he considered the “parking” of funds a normal business
     practice.
3
    OMB Circular No. A-11 refers to agencies entering computer data and submitting print materials and data
    up to the point that OMB must “lock” agencies out of the database to meet the budget printing deadline.
    OMB provides specific deadlines for this activity.



                                                       4
Criteria
     Section 1001, Title 18, United States Code. Section 1001, title 18, United States
     Code (U.S.C.) states,

            Except as otherwise provided in this section, whoever, in any matter
            within the jurisdiction of the executive, legislative, or judicial branch
            of the Government of the United States, knowingly and willfully (1)
            falsifies, conceals, or covers up by any trick, scheme, or device a
            material fact; (2) makes any materially false, fictitious, or fraudulent
            statement or representation; or (3) makes or uses any false writing or
            document knowing the same to contain any materially false, fictitious,
            or fraudulent statement or entry; shall be fined under this title or
            imprisoned not more than 5 years, or both.

     Section 1341(a)(1)(A), Title 31, United States Code. According to 31 U.S.C.
     1341(a)(1)(A), an officer or employee of the United States Government may not
     make or authorize an expenditure or obligation exceeding an amount available in
     an appropriation or fund for the expenditure or obligation.

     DoD Financial Management Regulation (FMR) 7000.14-R. DoD
     FMR 7000.14-R, volume 3, chapter 6, as revised July 22, 2003, provides
     guidance for the below-threshold reprogramming actions by DoD Components.
     A below-threshold reprogramming action is established for each appropriation
     and allows funds to be reprogrammed within each appropriation without requiring
     prior congressional approval. According to Conference Report 108-10, the
     below-threshold reprogramming authority effective for FY 2003 for an action in
     RDT&E DoD-wide was increased from less than $4 million to less than $10
     million.


Submission of Budget Data
     SOCOM personnel did not falsify official budget data submitted to Government
     officials regarding the $20 million in RDT&E funds in the FY 2003 budget,
     which would have violated 18 U.S.C. 1001.
     During the budget formulation phase, OMB provided DoD with budget
     instructions and a target figure for budget planning purposes. With the
     instructions and target figure, the DoD Budget office provided guidance to the
     DoD Components. The Components, including SOCOM, prepared their budget
     submissions and presented them to USD(C)/CFO. According to the former
     Director of the Investment Directorate, Office of the USD(C)/CFO, during the
     final preparations for the FY 2003 DoD budget, the Office of the USD(C)/CFO
     received an increase of approximately $200 million from OMB. In an effort to
     allocate the difference, the former Director asked the SOCOM Comptroller if
     SOCOM could use an increase of $40 million in its budget. The SOCOM
     Comptroller replied that SOCOM could budget for an additional $20 million. The
     money was not designated for any specific RDT&E purpose; therefore, the


                                               5
           additional funding could be applied to any RDT&E purpose.

           We reviewed the Program Budget Decisions from the last week in December
           2001 through the first week in January 2002. We reviewed a “13 report” from the
           Comptroller’s Office reflecting data as of February 2002. The 13 report described
           changes from the September 2001 budget total through the issuance of the
           President’s Budget in February 2002 for SOCOM RDT&E. We obtained copies
           of all of the other Program Budget Decisions and Program Decision
           Memorandums related to changes in the 13 report, with the exception of one
           classified Program Budget Decision, No. 608. We reviewed the documents and
           found them in agreement with the 13 report figures. We noted that there were
           also two P Code adjustments in the 13 report. 4 P Code adjustments can change
           the budget total. One of these adjustments, designated P48, did change the total
           as it was used to add the $20 million to the SOCOM budget, which was included
           in the President’s Budget submitted to Congress, and later into the appropriations.
           USD(C)/CFO and SOCOM retained no official documentation to support the
           reason for the P Code adjustments.

           The former Director of the Investment Directorate, Office of the USD(C)/CFO
           told us that when placing additional money in an agency’s budget, the Office of
           the USD(C)/CFO often reminded agency personnel “not to fall in love with this
           money” because it could be reprogrammed as unforeseen needs arose. Further,
           the former Director said that money placed in an agency’s budget in an attempt to
           balance the Budget Estimate Submission with the top line dollar amount was
           subject to the last in/first out theory. If reprogramming became necessary, the last
           money placed at an agency would be the first to be pulled back. For this reason,
           the former Director viewed the placement of the money as “parking” the money.
           He went on to say that Congress is aware of the procedure the Office of the
           USD(C)/CFO uses to balance the DoD component and agency budget totals with
           the top line figure provided by OMB.


Use of Appropriated Funds
           USD(C)/CFO and SOCOM personnel did not cause appropriated funds to be
           improperly diverted for a purpose not authorized by Congress as established in
           DoD FMR 7000.14-R, volume 3, chapter 6, and were not in violation of
           31 U.S.C. 1341. We determined that the USD(C)/CFO properly reprogrammed
           $4.3 million of the additional $20 million appropriated to SOCOM. Funding
           Authorization Document (FAD) No. 16, effective April 29, 2003, immediately
           transferred $4.3 million of the funds to the Armed Forces Radiobiology Research
           Institute.

           Of the remaining $15.7 million, FAD No.12, dated September 17, 2003,
           authorized $491,000 to SOCOM primarily for “taxes.” The term “taxes” here
           refers to the USD(C)/CFO Office’s allocation of a congressionally-mandated

4
    In the USD(C)/CFO Office’s automated budgeting system, “P Code” adjustments were usually used to
     make technical changes. However, the system did not document the reasons for the “P Code”
     adjustments.



                                                    6
    across-the-board budget reduction for RDT&E funding. USD(C)/CFO sent the
    remaining $15.209 million to SOCOM in FAD No. 14, effective October 3, 2003.
    FAD No. 15, dated November 6, 2003, rescinded $25 million in authorized
    RDT&E funds for SOCOM as a result of section 8049 of the DoD Appropriations
    Act of 2004. We reviewed Audit Trail Query Report documentation by project,
    which substantiated that the $15.7 million was included in the $25 million
    rescission. These reports document budget rescission actions by RDT&E project.
    Personnel at the USD(C)/CFO agreed that SOCOM did not realize any benefit
    from the $20 million in additional appropriations because the funds were
    rescinded.


Authorization Required for Transactions
    We found no indications that subsequent transactions related to the RDT&E funds
    appropriated to SOCOM were illegal or were not authorized at appropriate levels.
    We determined that the amounts moved within the DoD budget were within
    prescribed threshold limits as established in DoD Regulation 7000.14-R,
    volume 3, chapter 6, and Conference Report 108-10.

    The budgeting process provides DoD the flexibility to reprogram funds because
    of changes in missions or priorities within prescribed limits. We determined that
    the reprogramming of $20 million in RDT&E funds appropriated to SOCOM for
    FY 2003 was either within program limits or followed other procedures in place
    for reprogramming.

    At that time, the threshold for the requirement to obtain congressional approval
    for RDT&E reprogramming was $10 million. For the $20 million in RDT&E
    funds, $4.3 million was reprogrammed to RDT&E funds for the Armed Forces
    Radiobiology Research Institute. Because the $4.3 was less than the threshold
    amount, congressional approval was not required. USD(C)/CFO rescinded the
    remaining $15.7 million authorized to SOCOM as part of a $25 million rescission
    specified in the DoD Appropriations Act of 2004.


Conclusion
    We found no evidence of laws broken or rules violated by USD(C)/CFO or
    SOCOM staff involved with budgeting for or reprogramming of the FY 2003
    funds appropriated to SOCOM. The programming, budgeting, and execution
    procedures were accomplished in compliance with the laws and regulations of the
    United States, and with the policies of the OMB and the DoD. Our audit did not
    identify any improprieties, fraud or lying, or conspiracy to commit fraud or lying
    against the United States during the FY 2003 programming and budgeting
    process. Our audit did not identify any misuse of FY 2003 appropriated funds.
    Accordingly, we make no recommendations in this report.




                                        7
Appendix A. Scope and Methodology
    We reviewed specific allegations made to the Defense Hotline regarding funding
    irregularities at the U.S. Special Operations Command (SOCOM) Comptroller
    Division and the USD(C)/CFO. Specifically, we reviewed statutory authorities
    and DoD policies and procedures used in the budget formulation and execution
    process. We also reviewed OMB directives on preparing and submitting budget
    estimates. In addition, we reviewed various documents concerning the use of
    program funds within the SOCOM RDT&E and Defense Hotline documentation
    concerning those funds.

    We conducted interviews with officials from the offices of the SOCOM
    Comptroller Division and the USD(C)/CFO. We contacted and questioned
    personnel from OMB. Also, we reviewed a DCIS Report of Investigation on
    these allegations.

    We reviewed DoD budget documents, the President’s Budgets, applicable
    appropriation and authorization laws, and funding authorization documents. We
    reviewed budget and allocation reports and documentation including the Budget
    Estimate Submission data and Funding Authorization Documents. We also
    reviewed congressional briefs submitted by SOCOM. At the command level we
    identified accounting procedures and obtained and analyzed documentation
    including RDT&E Detail Project Reports. We performed this audit from October
    2005 through February 2006 in accordance with generally accepted government
    auditing standards.

    See Appendix B for the specific issues raised by the Defense Hotline allegations
    and our conclusions.

    Limitation to Scope. The scope of the audit was limited to a review of the
    allegations to the Defense Hotline concerning funding irregularities at the
    SOCOM involving the USD(C)/CFO for FY 2003.

    Use of Computer-Processed Data. We relied on computer-processed data to
    perform this audit. The use of computer-processed data was limited to data
    provided from the SOCOM Comptroller Division and the Office of the
    USD(C)/CFO to identify budget formulation and execution within these activities.
    Although we did not perform a formal reliability assessment of the computer-
    processed data, we did not find errors that would preclude use of the computer-
    processed data to meet the audit objectives or that would change the conclusions
    in this report.


Prior Coverage
    No prior audit reports have been issued in this matter.




                                         8
Appendix B. Summary of Allegations and Results
   Allegation 1. The SOCOM Comptroller conspired with an as yet unidentified co-
   conspirator within the USD(C)/CFO to commit fraud against the United States of
   America by agreeing to “hide” $20 million and by preparing and submitting
   fictitious budget exhibits; this act also contributed to the submission of false
   testimony to Congress by high-ranking SOCOM employees.

   Results. The allegation was unsubstantiated. We interviewed SOCOM and
   USD(C)/CFO employees who had knowledge of the FY 2003 budget process.
   Also, we obtained and reviewed various documents pertaining to the $20 million
   in additional funds. In December 2001 the USD(C)/CFO was finalizing
   preparations for the FY 2003 DoD budget. According to the former Director of
   the Investment Directorate, Office of the USD(C)/CFO, the DoD FY 2003 budget
   totaled approximately $200 million less than the $358 billion target figure
   provided by the OMB. In an effort to allocate the difference, the former Director
   of the Investment Directorate, USD(C)/CFO, asked the SOCOM Comptroller if
   SOCOM could use an increase in its budget.

   The SOCOM Comptroller replied that SOCOM could budget an additional
   $20 million. At that time, none of the funds for the FY 2003 budget year had
   been appropriated, and the money was not designated for any specific RDT&E
   purpose. Therefore, the additional funding could be applied to any valid purpose.
   Our analysis leads us to believe that the former Director was acting, at least in
   part, in consideration of the overall anticipated financial requirements of DoD.

   Interviews with USD(C)/CFO employees who were involved with the overall
   DoD budgeting process revealed that this practice was done in order to balance
   the total budget requests with the DoD top line dollar amount the OMB provides
   to the USD(C)/CFO. In addition, further review of documentation showed that
   the $20 million represented in the proposed budget presented to Congress was
   either reprogrammed or rescinded, and SOCOM did not realize any benefit from
   the proposal.
   Allegation 2. The SOCOM Comptroller assisted in the conversion of $20 million
   for the use of another individual, the unidentified co-conspirator within the
   USD(C)/CFO. The $20 million was eventually appropriated by Congress and
   became available to spend; it appeared that these funds could be spent for
   something other than that for which they were appropriated, a violation of the
   Antideficiency Act.

   Results. The allegation was unsubstantiated. A review of funding documentation
   showed that the $20 million represented in the proposed budget presented to
   Congress was either properly reprogrammed or rescinded. Funding Authorization
   Document (FAD) No. 16, effective April 29, 2003, transferred $4.3 million of the
   funds to the Armed Forces Radiobiology Research Institute. Of the remaining
   $15.7 million, FAD No.12, dated September 17, 2003, authorized $491,000
   primarily for “taxes.” USD(C)/CFO authorized the remaining $15.209 million to
   SOCOM with FAD No. 14, effective October 3, 2003. FAD No. 15, dated
   November 6, 2003, rescinded $25 million as a result of the DoD Appropriations


                                       9
Act 2004. The rescission included the remaining $15.7 million. The funds
reprogrammed were within approved threshold limits not requiring congressional
approval. All of these changes were properly authorized even though SOCOM
never realized benefits from the $20 million.

These issues were investigated by DCIS in coordination with the U.S. Attorney’s
Office in Tampa, Florida, and included a review of compliance with the
requirements of 31 U.S.C. 1341(a)(1)(A). DCIS, in coordination with the U.S.
Attorney’s Office, determined that because the funds in question had not been
appropriated to other programs at the time they were offered to the SOCOM
Comptroller by the USD(C)/CFO, personnel did not violate 31 U.S.C.
1341(a)(1)(A).

Allegation 3. The SOCOM Comptroller violated several aspects of 18 U.S.C.
1001 by concealing the fact that $20 million was hidden in the Command’s
FY 2003 RDT&E budget and by submitting fictitious budget exhibits to
Congress.

Results. The allegation was unsubstantiated. A DCIS investigation in
coordination with the U.S. Attorney’s Office in Tampa, Florida, included a review
of these matters and found that no false statements were made to Congress and
that 18 U.S.C. 1001 was not violated. SOCOM personnel provided budget
justification books containing program data to Congress prior to the staff
briefings. In accord with usual practice, no recording of the briefings given to
congressional staffers was made. The only notes taken were by the staffers
themselves. The briefing slides, reviewed by the DoD Office of Inspector
General, provided additional details regarding the intended use for the
$20 million, with no effort to conceal its existence within the program budgets.
The preparation and presentation of budget data for the additional funds followed
the normal budget process.




                                   10
Appendix C. Budget Formulation Process
   This is a brief description of the major timeframes and events in the budget
   formulation process for any given budget cycle.

   •   Spring – OMB issues spring planning guidance to agencies for the upcoming
       budget. This begins the process of formulating the budget the President will
       submit the following February.

   •   Spring/Summer – OMB and the agencies discuss budget issues and options.
       OMB works with the agencies to:

       -   identify major issues for the upcoming budget,
       -   develop and analyze options for the upcoming fall review, and
       -   plan for the analysis of issues that will need decisions in the future.

   •   July – OMB issues detailed instructions for budget submission through
       Circular No. A-11 to all agencies.

   •   August – DoD Components provide budget submissions for the budget year
       to USD(C)/CFO.

   •   September – Agencies make initial budget submissions to OMB.

   •   October/November – OMB conducts its fall review. The OMB staff
       analyzes agency budget proposals in the light of Presidential priorities,
       program performance, and budget constraints.

   •   Late November – OMB briefs the President and senior advisors on proposed
       budget policies. The OMB director recommends a complete set of budget
       proposals to the President after OMB has reviewed agency requests and
       considered overall budget policies. OMB usually informs all agencies at the
       same time about the decisions on their budgets through “passback”.
   •   Late November to early January – All agencies enter computer data and
       submit print materials and data. This process begins immediately after
       passback and continues until OMB must “lock” agencies out of the database
       to meet printing deadline. OMB provides specific deadlines for this activity.

   •   December – Agencies may appeal to OMB and the President. An agency
       head may ask OMB to reverse or modify certain decisions. Usually, OMB
       and the agency head resolve such issues and, if not, work together to present
       the issues to the President. OMB provides specific deadlines for this activity.

   •   January – Agencies prepare and OMB reviews congressional budget
       justification materials. Agencies prepare the materials they need to explain
       their budget requests to the congressional subcommittees.




                                         11
•   First Monday in February – President transmits the Presidential Budget to
    Congress for the upcoming fiscal year beginning October 1.

•   March through August – Congress reviews and holds hearings on the
    budget.




                                   12
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Combatant Command
Commander, U.S. Special Operations Command
Inspector General, U.S. Special Operations Command
Comptroller, U.S. Special Operations Command
Deputy Comptroller, U.S. Special Operations Command

Non-Defense Federal Organization
Office of Management and Budget




                                          13
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Finance, and Accountability,
  Committee on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform




                                        14
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Patricia A. Marsh
Barbara A. Sauls
C. Kirk Winstead
Delpha W. Martin
Ronald L. Smith
Peter I. Lee
Erin S. Hart
Ann Thompson
